43i
UNITD STATES OF At\1ERICA

FEDERAL TRADE COMMSSION
WASHINGTON, D. C. 20580

June 22 , 2004

T. Scott Giligan , Esq.
Gilligan Law Offices
3734 Eastern Avenue

Cincinnati , OR 45226
Re: Receipt for Third- Pary

Caskets

Dear Scott:

This is in response to your letter of June 9 , 2004 , regarding further clarification of the
FTC's position on providing receipts for third- pary caskets. As you indicate , the FTC staff's
position continues to be that which was first stated in 1988: The Funeral Rule requires that
funeral homes sign a receipt acknowledging delivery of third- party caskets, Any other action
which would act as a deterrent to a consumer who wishes to purchase goods from another party
may violate the Rule s prohibition in Section 453A(b)(1) against conditioning the furnishing of
any funeral goods or services to a person aranging a funeral upon the purchase of any other
funeral good or service,

You note that the receipt for the third- pary casket that is presented to funeral directors
often require that the funeral home acknowledge that the casket has been inspected and that the
condition of the casket is acceptable. You have advised funeral homes to sign only the receipt
that acknowledges delivery and receipt of the casket , but not to sign any receipt that also includes
a representation regarding acceptance of the casket. You indicate that you have provided this
advice because the funeral home is not a pary to the contract and , therefore , are not in a position
to legally accept the merchandise , much less be sure that the merchandise is what the consumer
purchased, You include a copy of a Receipt of Third Pary Merchandise form which you have

suggested that the funeral homes provide to third-pary casket companies that are delivering
caskets, You ask whether the use of the NFA receipt form would be acceptable under the
Funeral Rule.

The NFA' s Receipt of Third Pary Merchandise enclosed with your letter appears to be
identical to the one you submitted in 1999 as Appendix B to your comments on the Rule Review,
The form states that the funeral director acknowledges receipt of the merchandise , but that the
acknowledgment does not constitute acceptance of the merchandise or its condition , which may
only be given by the purchaser. The form also provides a space where the funeral home can note
any visible defects or conditions that were present at time of delivery.

As you know , Section 453A(b)(I) prohibits funeral providers from requiring consumers
to purchase goods that they do not want. The Commssion staff has interpreted that provision to
unreasonablv burden the consumer s choice to
also mean that the funeral provider must not

purchase an item from a pary other than the funeral home. Among the practices that may
453A(b)(I) are requiring the consumer to be present when the casket is delivered and
violate
refusing to sign for delivery of the casket. It is my opinion that the NFA

Receipt of Third Pary

Merchandise does not constitute an unreasonable burden on the consumer, as long as it is not
used as a justification for requiring the consumer to be present when the merchandise is delivered
or for otherwise unreasonably requiring the consumer s physical presence to inspect or accept the
merchandise. I

I hope this information is helpful to you. Please note that the views expressed in this
letter are those of the FTC staff. They have not been reviewed , approved or adopted by the
Commssion , and they are not binding on the Commission or any individual Commssioner.
However , they reflect the opinions of the staff members who are charged with enforcement of the
3115 (email
Funeral Rule. If you have any questions , please feel free to contact me at (202) 326cdanielson 0!ftc. gov
Sincerely,

Carole L Danielson
Senior Investigator and
Funeral Rule Coordinator

For example , it may be a violation on 453A(b)(I) forfuneral providers to refuse
to use third-pary merchandise in conducting agreed- upon funeral arangements until the
consumer or his/heuepresentative physically inspects and/or accepts such merchandise.

